<html>
<title> - EXAMINING MISCONDUCT AND RETALIATION AT TSA</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
                  EXAMINING MISCONDUCT AND RETALIATION
                  
                                 AT TSA

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 26, 2018

                               __________

                           Serial No. 115-104

                               __________

Printed for the use of the Committee on Oversight and Government Reform




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



        Available via the World Wide Web: http://www.govinfo.gov
                       http://oversight.house.gov
                       
                       
                       
                       
                          _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 32-574 PDF              WASHINGTON : 2018                             
                       
                       
                       
              Committee on Oversight and Government Reform

                  Trey Gowdy, South Carolina, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Virginia Foxx, North Carolina        Jim Cooper, Tennessee
Thomas Massie, Kentucky              Gerald E. Connolly, Virginia
Mark Meadows, North Carolina         Robin L. Kelly, Illinois
Ron DeSantis, Florida                Brenda L. Lawrence, Michigan
Dennis A. Ross, Florida              Bonnie Watson Coleman, New Jersey
Mark Walker, North Carolina          Raja Krishnamoorthi, Illinois
Rod Blum, Iowa                       Jamie Raskin, Maryland
Jody B. Hice, Georgia                Jimmy Gomez, Maryland
Steve Russell, Oklahoma              Peter Welch, Vermont
Glenn Grothman, Wisconsin            Matt Cartwright, Pennsylvania
Will Hurd, Texas                     Mark DeSaulnier, California
Gary J. Palmer, Alabama              Stacey E. Plaskett, Virgin Islands
James Comer, Kentucky                John P. Sarbanes, Maryland
Paul Mitchell, Michigan
Greg Gianforte, Montana
Michael Cloud, Texas

                     Sheria Clarke, Staff Director
                    William McKenna, General Counsel
           Jessica Donlon, Deputy Subcommittee Staff Director
                         Kiley Bidelman, Clerk
                 David Rapallo, Minority Staff Director
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 26, 2018...............................     1

                               WITNESSES

The Honorable David Pekoske, Administrator, Transportation 
  Security Administration
    Oral Statement...............................................     6
    Written Statement............................................     9

                                APPENDIX

Staff report submitted by Ranking Member Cummings................    44
Letter for the record from the American Federation of Government 
  Employees, submitted by Mr. Lynch..............................    54


              EXAMINING MISCONDUCT AND RETALIATION AT TSA

                              ----------                              


                     Wednesday, September 26, 2018

                   House of Representatives
               Committee on Oversight and Government Reform
                                                   Washington, D.C.
    The committee met, pursuant to call, at 1:04 p.m., in Room 
2154, Rayburn House Office Building, Hon. Trey Gowdy [chairman 
of the committee] presiding.
    Present: Representatives Amash, Massie, Walker, Blum, Hice, 
Grothman, Hurd, Palmer, Comer, Mitchell, Cloud, Cummings, 
Maloney, Lynch, Connolly, Lawrence, Watson Coleman, 
Krishnamoorthi, DeSaulnier, and Plaskett.
    Chairman Gowdy. The Committee on Oversight and Government 
Reform will come to order. Without objection, the presiding 
member is authorized to declare a recess at any time.
    We welcome you, Admiral. We have votes that are pending, so 
Mr. Cummings and I are going to try to get our opening 
statements in, and then we will recognize you for yours, time 
allowing, and then we will come back after votes. But welcome
    The Transportation and Security Administration is charged 
with an important mission, which is safeguarding America's 
aviation system. TSA screens over 2 million passengers daily at 
over 430 airports. There is no margin for error, so 
consequently their mission requires constant vigilance in an 
ever-evolving threat environment.
    To meet this demanding responsibility, TSA must run 
efficiently and effectively. It must directly address security 
threats. It must encourage open dialogue. It must foster a 
culture of leadership.
    And while Congress recognizes TSA is under relatively new 
leadership, and while we also acknowledge and recognize that 
doing your job effectively is not always, in the current 
environment, noteworthy, those two facts, notwithstanding, TSA, 
in some instances, has fallen short of the important mission 
that they have been afforded.
    In 2015, the committee received allegations of senior-level 
misconduct and whistleblower retaliation, and consequently 
launched an investigation. During the course of the 
investigation the committee conducted 11 transcribed 
interviews, and met and spoke with dozens of whistleblowers, 
and reviewed thousands of pages of documents.
    The committee held five public hearings, including today's. 
Yesterday, the committee released its investigative report, and 
the result of it's findings. As detailed in the report, the 
committee's investigation discovered senior TSA officials 
engaged in patterns of misconduct, resulting in very minimal 
consequences.
    In December of 2014, TSA's Office of Inspection launched an 
investigation into Assistant Administrator Joseph Salvator. The 
complaint alleged Mr. Salvator committed misconduct by having 
an inappropriate relationship with a subordinate, misusing his 
official position during the hiring process, and lacking candor 
with investigators.
    Through its investigation, the Office of Inspection 
determined Salvator committed several acts of misconduct, and 
recommended that he be fired. Despite the recommendation, TSA 
leadership chose not to terminate Salvator. In the same hour 
Salvator received OPR's notice of proposed removal, the Chief 
Counsel's Office offered a settlement agreement, recommending, 
instead of dismissal, a 14-day suspension, and a demotion, with 
no loss in pay. Not surprisingly, Salvator accepted
    The department's Office of Inspector General discovered the 
same pattern, in their report the OIG concluded TSA senior 
leaders deviated from standard policy and practice in a number 
of key respects, indicating that the assistant administrator 
received unusually favorable treatment in the resolution of his 
disciplinary matter.
    The committee also found senior TSA officials used 
involuntary directed reassignments as a means of retaliating 
against disfavored employees, including whistleblowers. 
Initially, directed reassignments, which relocate employees 
from airport to airport, were intended to improve the 
workforce, and, thereby, security at airports.
    Senior officials at TSA headquarters, however, soon used 
them as a tool of reprisal to force whistleblowers or 
disfavored employees to relocate airports, often hundreds of 
miles away, and in some instances, several states away.
    In May of 2018, the Office of Special Counsel settled a set 
of these retaliation cases with TSA for $1 million. In this 
case, three TSA employees, who received operational--who raised 
operational issues at the Honolulu Airport were relocated from 
Hawaii, where their homes and families live, to mainland U.S. 
They were forced to report to their new assignment within just 
a few days.
    In a recent briefing, the committee learned TSA is 
considering implementing another initiative using directed 
reassignments to improve the TSA workforce. If that is, indeed, 
the case, TSA needs to reconsider. The last time TSA used 
directed reassignments, it became a tool to retaliate. And that 
is one of the reasons we are having the hearing today, to 
ensure mistakes of the past are not repeated.
    Throughout our investigation the committee also faced 
obstruction, obstruction which prolonged this investigation. 
Now I am just going to stop right now, and repeat what I sai8d 
earlier on. I recognize TSA is under new leadership, and most 
of what I am describing, if not all of what I am describing, 
did not take place under the Admiral's watch.
    Nonetheless, it was TSA then, too, and per our normal 
investigative practice, the committee requested documents from 
TSA. TSA refused to produce many of these documents. The 
committee then issued a subpoena to compel production of the 
documents, but under the direction of the department's Office 
of General Counsel, TSA refused to produce these documents.
    In January of 2018, we sent a letter to Secretary Nielsen, 
requesting a transcribed interview with then DHS acting general 
counsel, Maher, and demanded the production of the subpoenaed 
documents. DHS and TSA refused to comply with either request. 
Finally, after the committee issued a subpoena 2 weeks ago, Mr. 
Maher agreed to appear before a transcribed interview. TSA, 
however, has yet to produce the documents. That is, to put it 
plainly, not going to be tolerated.
    As a result, our findings will be shared with leadership in 
the House and those responsible for appropriating money to the 
TSA. The documents requested relate to the underlying 
allegations in this investigation, which are misconduct and 
retaliation. And yet, the Office of General Counsel withheld 
them on the basis of a thinly veiled, almost exclusively self-
serving privilege that, oh, by the way, is also inapplicable to 
congressional investigations.
    The House of Representatives derives its authority from the 
U.S. Constitution, and is bound only by the privileges derived 
therefrom. This committee does not, nor does the House of 
Representatives, recognize purported nondisclosure privileges 
associated with common law. That is true even when said 
privilege is irrelevant.
    That was not the case here. Here, TSA sought to rely on 
inapplicable privileges, which are, in addition to not being 
recognized by Congress, inapplicable. It appears, at least to 
this member, TSA sought to withhold this information through 
DHS general counsel from Congress because TSA simply believed 
it could.
    It is the responsibility of the House, and that includes 
all members, irrespective of political ideation, to thwart such 
intransigence. TSA needs to produce these documents to the 
committee in full. The problems laid out in the committee's 
report are not simply issues of the past. TSA officials 
involved in wrongdoing, in some instances, remain in senior 
positions today.
    A number of OSE whistleblower cases have yet to be 
resolved. TSA and DHS OGC continue to refuse to produce 
compelled documents and material facts to the committee. TSA 
must continue to improve its leadership accountability and its 
culture. As one whistleblower testified, TSA's problems are 
rooted in the areas of leadership and culture. Ours is a 
culture of misconduct, retaliation, lack of trust, coverups, 
and the refusal to hold its senior leaders accountable for poor 
judgment and maleficence.
    And for the safety of our nation, TSA must do better. And I 
will say, based on my interactions with you, Admiral, I am 
confident that you are going to be able to provide the kind of 
leadership, if you are given enough time to do so, which we 
will get to that during the Q&A part, the term of service.
    Further to that, before I recognize Mr. Cummings, I am not 
going to ask any trick questions. I am going to go last. I am 
going to ask you about the budget. I am going to ask you about 
equipment at the screening points. I am going to ask you to the 
extent you can discuss it publicly, about new emerging threats. 
I am going to ask you about air marshals.
    I am going to ask you about your budget, and whether or not 
you could use more resources. So I am not going to try to trick 
you when it is my time to ask questions. I think that you are 
the right person to provide leadership, but I know that new 
leadership is needed. And what happened yesterday, when a 
committee of Congress sought information related to a really 
important investigation, is not going to be tolerated. And I 
think that is true on a bipartisan. For those who like 
bipartisanship, stay tuned after yesterday.
    With that, Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman. And I want 
to thank you for calling today's hearing to examine the results 
of our bipartisan 3-year investigation of the Transportation 
and Security Administration. This issue is very close to my 
heart, because I helped launch this investigation, together 
with our former chairman, Jason Chaffetz, in 2015, after the 
inspector general of the Department of Homeland Security issued 
a troubling report on vulnerabilities in TSA's screening 
operations.
    Later that year, we expanded our investigation to examine 
problems with TSA's personnel management practices, after we 
received reports that a senior official engaged in serious 
misconduct was recommended for removal. Instead of being fired, 
he was given a settlement that included only a 2-week 
suspension, and no reduction in pay. Since then, we have sent 
many requests for documents, interviewed witnesses, and held 
hearings.
    However, our oversight efforts have been impaired 
significantly by the failure and outright refusal of the TSA 
and the department to produce all the documents and witnesses 
we need to do our job. For that reason, I fully support the 
subpoenas to hold those officials accountable.
    Now let me make one thing very clear. I supported these 
oversight efforts regardless of who was in the White House, 
under the administrations of both President Obama and President 
Trump. I did that, because the security of the American people 
should not be a partisan issue.
    Today, I am releasing a staff report that sets forth my 
conclusions and recommendations for how I believe we should 
move forward in this committee and in Congress.
    I ask unanimous consent that my report be made a part of 
the official record, Mr. Chairman.
    Chairman Gowdy. Without objection.
    Mr. Cummings. Based on all of our work over the past 3 
years, I believe we need urgent reforms in three key areas: 
Security operations, personnel management, and transparency. 
First and foremost is security operations.
    When we started this investigation, we received troubling 
testimony from DHS Inspector General about serious 
vulnerabilities in TSA screening operations. Most recently, the 
inspector general issued a report that warned of ongoing, and I 
quote, ``Vulnerabilities with TSA's screener performance, 
screening equipment, and associated procedures.''
    He also issued a report concluding that the contribution of 
the Federal Air Marshal Service to aviation security is 
``Questionable.'' Based on our 3-year investigation, my 
recommendation is for Congress to demand sustained 
accountability from TSA on security measures. We need to press 
the agency to finally implement numerous unfulfilled security 
recommendations made by the inspector general, GAO, and others 
that have languished, in some cases, for years.
    I fully understand that many of these unfulfilled 
recommendations are classified, but I believe Congress needs to 
lodge a 1-year oversight effort that is focused on ensuring 
that TSA takes the steps it needs to take and to resolve 
numerous vulnerabilities in its security operations.
    Second, on personnel practices, we have identified many 
examples of arbitrary and unfair actions against both managers 
and security officers. We have also found several instances of 
retaliation against whistleblowers who report security 
deficiencies. The problem is that TSA employees have fewer 
protections against these kinds of abuses than any other 
federal employees. There is a much higher bar for TSA employees 
to clear; although, they have been doing so.
    In fact, just 2 weeks ago I attended an event to honor 
three TSA whistleblowers who received the Public Servants of 
the Year award from the Office of Special Counsel.
    My second recommendation is for Congress to consider 
legislative proposals to strengthen Civil Service protections 
to protect whistleblowers from retaliation, and protect 
employees against arbitrary personnel actions.
    Third is the absolutely critical need for greater 
transparency. Both TSA and the department repeatedly refuse to 
cooperate with our investigation. They refuse to provide 
documents we subpoenaed a year-and-a-half ago, including 
documents about the same whistleblowers who received those 
awards.
    They also withheld documents from the Office of Special 
Counsel, and it took an act of Congress, literally, to make 
sure that they got them. Just yesterday, our staff was finally 
able to speak with the senior attorney at the department, who 
was involved with many of these troubling decisions. The 
department refused to produce them voluntarily, so we had to 
subpoena them for a deposition.
    So, my third and final recommendation is for Congress to 
consider legislation to significantly enhance transparency at 
TSA, transparency about whistleblower claims, about settlement 
agreements, and about nondisclosure agreements employees are 
forced to sign.
    As I close, let me say this. I do not know who will control 
Congress next year, but based on the results of our 3-year 
investigation, I believe that we must do everything in our 
power to produce and redouble our efforts with regard to what 
we are moving to implement concrete reforms.
    With that, let me welcome the administrator. I want to 
thank you, Mr. Administrator, for being here. I want to thank 
the chairman for cooperating with us, and working truly in a 
bipartisan way to get the subpoenas out, and to move this 
investigation along. And he is absolutely right, this is a 
bipartisan effort. And, of course, I knew you when I was 
chairman of the Subcommittee on Coast Guard, and I know the 
type of man you are, and I know you are a man of your word. And 
so I look forward to working with you, and I look forward to 
hearing from you. With that, I yield back.
    Chairman Gowdy. They called votes, so we are going to 
recess to go vote, and then we will come back, and got all the 
guys that are here in the queue, ready to go. So as soon as Mr. 
Cummings and I get back, we will recognize you for your 
opening.
    [Recess.]
    Chairman Gowdy. The committee will come to order. Thank you 
for your patience during that vote series.
    With that, we are pleased to introduce our witness, the 
Honorable David Pekoske, Administrator of the Transportation 
and Security Administration. Welcome.
    Pursuant to committee rules, all witnesses will be sworn in 
before they testify. So, I would ask you to please stand and 
raise your right hand.
    Do you solemnly swear or affirm the testimony you are about 
to give should be truth, the whole truth, and nothing but the 
truth so help you God?
    Chairman Gowdy. The witness answered in the affirmative.
    There is a series of lights that indicate where you are. I 
am sure you are familiar with that. And with that, we would 
recognize you for your 5-minute opening statement.

                       WITNESS STATEMENT

                   STATEMENT OF DAVID PEKOSKE

    Mr. Pekoske. Chairman Gowdy, Ranking Member Cummings, and 
distinguished members of this committee, thank you for the 
opportunity to appear before you this afternoon. As this is my 
first appearance before this committee, and some of you don't 
know me, let me open with a pledge to be responsive to the 
committee's oversight, and to your recommendations for TSA.
    Additionally, given the nature of the topics we will 
discuss today, and the seriousness of the issues, I would be 
happy to meet with any member on any matter. And I further 
offer to meet with the committee staff in the future, if you 
would find that helpful.
    As you know, sir, I have just finished my first year as the 
administrator, and in this first year I have devoted the 
majority of my time to be at the front line of TSA, where the 
vast majority of our employees work. In this first year we have 
published a strategy and an administrator's intent to continue 
maturing a relatively young agency.
    I want to develop a culture in TSA that is free of 
retaliation, that values employee input, and results in a very 
positive work environment, with high employee morale. This is 
so critical to our long-term success in protecting the nation's 
transportation systems, and being good stewards of taxpayer 
dollars.
    I think we have addressed current discipline issues well 
over the past year. This is a positive beginning, and is 
reflected in data on discipline and whistleblower cases. And it 
is reflected in the just released FEVS, or Federal Employee 
Viewpoint Survey, scores for TSA. These scores are the highest 
in TSA history, and they reflect improvement in every single 
federal employee viewpoint survey category.
    At the same time, we must reflect on and learn from the 
past. I have read the majority and democratic staff reports 
that you released yesterday afternoon, and will study them 
further in the days ahead, as will all of TSA senior 
leadership.
    Simply put, I am deeply troubled by what I read. All of the 
individual cases described in your reports occurred before I 
became the administrator. And I assure you, the outcomes of 
some would be different today than what they were a few years 
ago. However, where misconduct has occurred, and the matter is 
closed, I respect the finality of those decisions even if I 
would have handled them differently.
    You will find, I hope, that I will be very responsive to 
your work, and importantly, that I will continue to improve TSA 
culture and processes to ensure we don't repeat the mistakes of 
the past, and that the change is enduring. And I think that is 
one of the critical values that I can add as the administrator, 
is to ensure that whatever changes we put in place are 
memorialized and become part of the institutional fabric of 
TSA, so that TSA truly does continue to learn as an 
organization.
    I would also state that I had the privilege of following a 
very good friend of mine, Administrator Peter Neffenger, into 
this position. And the position I have taken since I have been 
the administrator was to build on the very solid foundation 
Administrator Neffenger left for me. And so I hope to do that 
for whom ever succeeds me.
    I will also note that several months ago I met with several 
whistleblowers to hear their stories firsthand. I told them I 
valued their input, and I will work hard to rid TSA of any 
behavior that smacks of retaliation, that their experience will 
have a beneficial impact on TSA.
    In my career in the public and private sectors I have 
always championed equality of treatment, fundamental fairness, 
transparency, strong leadership, and accountability. I am 
accountable to you, to the American people, to the secretary, 
and very importantly, to the TSA workforce. And yes, I am 
accountable to my workforce, and it is a privilege to hold the 
position I am in today.
    I have personally interacted with thousands and thousands 
of TSA employees in my first year in locations all around the 
country, and, indeed, all around the globe. They are, with rare 
exception, outstanding public servants. They are professional, 
committed, and they truly are great representatives of America 
to the millions of travelers we protect each and every day.
    I am proud of them, and grateful for the work they do, as I 
know all of you are as well. I want the American people to know 
that despite some of the difficult challenges we will discuss 
today, the vast majority of the men and women of TSA are 
dedicated, hard-working, and honorable individuals.
    Just this morning, for example, we had an example of their 
service. One of our lead officers at Milwaukee Airport, named 
Tony D'Amico, rushed to the aid of a traveler who was having a 
heart attack in the security checkpoint, likely saving that 
passenger's life. Tony is a great example of the TSA workforce.
    After 9/11, TSA adopted a slogan that said, ``Not on my 
watch,'' reflecting that a repeat of 9/11 would not occur on 
the watch of any individual TSA man or woman. We changed that 
slogan very slightly over the past year to say, ``Not on our 
watch.'' And what that stands for is that while we are on watch 
in this agency, we will do everything we can to prevent another 
terrorist incident from occurring in our transportation system.
    That slogan also applies to retaliation against 
whistleblowers in cases of misconduct. I want everybody in TSA 
to say, ``That won't happen on our watch,'' and we do this 
together.
    In closing, Mr. Chairman, Ranking Member Cummings, thank 
you for the opportunity to appear before you this afternoon, 
and I look forward to responding to your questions. Thank you, 
sir.
    [Prepared statement of Mr. Pekoske follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairman Gowdy. Thank you. The gentleman from Wisconsin is 
recognized.
    Mr. Grothman. I have a few questions for you.
    First of all, you know, in the past, the committee's 
findings at TSA did indicate that whistleblowers were punished. 
Can you just give me your general overall reaction to that?
    Mr. Pekoske. I am sorry, sir. I did not get the whole 
question.
    Mr. Grothman. What is your response to the fact, or how do 
you feel about whistleblowers being retaliated against?
    Mr. Pekoske. Well, first off, it is against the law. And 
secondly, I just think that is completely unacceptable 
behavior. And one of the things that I have tried very hard 
since I have been the administrator is to ensure that each and 
every employee in TSA knows that I want their input. They are 
the ones that do the job of the agency day in and day out. They 
see passengers. They provide the security service directly. I 
want their input, and I want to be responsive to their input.
    Mr. Grothman. Okay. In the past there have been 
retaliations. I realize it was before you got there. Has 
anything happened to the people who retaliated against the 
whistleblowers? I mean is there something that you can point to 
that you can say, ``This guy did this, this manager did this, 
and they are out of here,'' sir?
    Mr. Pekoske. Well, you know, of course, whenever there--and 
again, this hasn't happened since I have been the administrator 
----
    Mr. Grothman. Right.
    Mr. Pekoske.--but should an employee retaliate against 
someone else, that would absolutely be reflected in their 
performance evaluations. And if we considered it serious 
enough, it would be subject to disciplinary action.
    Mr. Grothman. But I mean has that happened in the past, 
where if I am one of these guys who retaliates, I know that 
people are going to come down on me. Either your predecessor or 
you. And I realize you are new up there, although you can still 
maybe take action against people who did this in the past. Are 
there things that you can point to that is going to scare 
people out of this behavior?
    Mr. Pekoske. I would point to their performance 
evaluations; although, I can't give you a specific example, 
sir, of a performance evaluation, just because I don't have 
knowledge of that. But I would certainly expect that 
performance evaluations and disciplinary action would be an 
appropriate remedy.
    Mr. Grothman. Okay. But right now, as of today's date, you 
cannot think of one example where you can say, ``This guy was 
at fault for coming after a whistleblower, and he lost his 
job,'' or something.
    Mr. Pekoske. Not to my direct knowledge.
    Mr. Grothman. Okay. One of the ways they punished people 
was by reassigning people to a different office hundreds of 
miles away. Will this ever happen again? Are you doing anything 
to make sure--I mean it is kind of surprising they even have 
the ability to do that, you know, transfer somebody from, I 
don't know, Cleveland to Miami, or something.
    Will that ever happen again? And are you doing things to 
even make sure that such long-distance reassignments don't 
happen?
    Mr. Pekoske. Yes, sir. First off, to my knowledge, there 
has not been an involuntary directed reassignment in TSA since 
2015. That policy was put in place and we have further 
strengthened that policy.
    Additionally, I have prohibited the use of involuntary 
directed reassignments for punitive measures. Now I would say 
that on occasion we will reassign employees based on the needs 
of the agency, but there are many things we consider in that 
process. We consider, first, the needs of the agency, second, 
the cost of that reassignment, and third, the needs of the 
individual.
    And there is a very robust process now, sir, that has 
oversight for all of those reassignment decisions, so that, you 
know, we have visibility of what decisions are being made, and 
can intervene, if need be. But there are no more involuntary 
directed reassignments for punitive measures.
    Mr. Grothman. Okay. Now there was this survey, and I am 
sure you are aware of, saying that only 47 percent of your 
employees felt they could go to someone and say, you know, 
something's wrong. There is a little scandal in this thing, by 
the way.
    You rank 332nd out of 336 agencies. The scandal is we have 
336 agencies. But that is not what we can deal with today. 
Given your ranking here, which is just almost beyond belief, 
what are you doing, other than training sessions, to make sure 
that agencies feel comfortable coming forth to supervisors?
    Mr. Pekoske. A couple things to comment on first, sir, is, 
first and foremost, when I mentioned the Federal Employee 
Viewpoint Survey, the trend in those surveys has been 
consistently positive for the last couple of years. So that 
means that whatever it is we are doing, and I will get to that 
in just a second, is having a positive effect.
    Additionally, the best places to work survey questions that 
go out to agencies every year, we have the results of those 
survey questions for 2018, and in every question category, we 
see an improvement year over year.
    Mr. Grothman. Okay. Well, we have only had one since this 
one, and in 2017, it was 47 percent. Do you have inside 
information? What is it for 2018?
    Mr. Pekoske. For 2018, it is--I can tell you that in the 
category, for example, in the FEVS survey, under ``Leaders 
lead,'' in 2017, it was--in 2017, it was 40 percent. In 2018, 
it was 44. Under ``Supervisors lead,'' it was 68 in '17, 70 
percent in 2018. That is a pretty good score. And then in the 
intrinsic work experience, went from 60 percent to 62 percent.
    Mr. Grothman. I still have a great deal of concern. If you 
are at 62 percent, that means 38 percent of the employees are 
afraid to say, ``Something is wrong here,'' for fear they are 
going to be in trouble. That is a lot of people.
    Chairman Gowdy. The gentleman's time has expired, but you 
may answer the question.
    Mr. Pekoske. I think what is really important, though, 
again, is the trend. And what I would like to see, sir, and I 
am working very hard to do this, is to see that trend, rather 
than going linearly up, it starts to take a more steep slope, 
to see improvement. I think we are at the position where we 
will see that in the next couple of years, I hope.
    Mr. Grothman. Thanks for coming over.
    Mr. Pekoske. Thank you.
    Chairman Gowdy. The gentleman from Maryland is recognized.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Two weeks ago, administrator, I attended an awards ceremony 
to honor three TSA employees who have now been named public 
servants of the year. Here is a photo of Sharlene Mata, Heather 
Callahan Chuck, and F. Michael Abreu. They reported security 
concerns at the airport where they worked. But rather than 
addressing their security concerns, senior managers at TSA 
retaliated against these employees, employing a practice known 
within TSA as directed reassignment.
    TSA moved them to new duty stations at different airports. 
They forced them to move their families hundreds of miles away. 
And eventually, TSA paid nearly $1 million to settle these 
whistleblower claims with regard to retaliation.
    Now I must give you credit, Mr. Administrator, that I know 
that you were involved with that settlement. And I thank you 
for doing that. Because so often people who go through these 
kinds of things unseen, unnoticed, unappreciated, and 
unapplauded. But you backed us up in a way, members of this 
committee, who believe very strongly, all of us, in protecting 
our whistleblowers.
    Now Administrator, do you agree with former Special Counsel 
Lerner, when talks about the fact that she wanted to make 
sure--she said, ``I think that the four protections of Title V 
applying to TSA would be very helpful, so that there is more of 
a feeling of fairness in employment actions, so that hiring 
decisions and promotion decisions are perceived as fair.'' 
Would you agree with that?
    Mr. Pekoske. Sir, under the Aviation and Transportation 
Security Act, the administrator has broad authority to manage 
the personnel within TSA. All of the authority I need is 
already in ATSA to do the things that you describe. And we are 
taking steps to be able to do that.
    One of the things that I mentioned in my opening statement 
was the conversations I have had with the TSA workforce since I 
have been the administrator. And I have gotten a lot of good 
feedback from them, and the things that concern them.
    I have also met with the American Federation of Government 
Employees, the Council 100, that represents TSA employees, 
twice now. So I understand their perspective. And we will make 
significant movement in that regard.
    The final thing I would add, sir, is that the Whistleblower 
Protection Act applies to TSA equally. So even though we are 
not under Title V, that act applies to TSA employees, as does 
the Enhancement Act.
    So I will do whatever I can to ensure that we provide as 
impartial a personnel review system as we possibly can. That is 
on my agenda for this fall.
    Mr. Cummings. Very good.
    I want to talk for a minute about the Transportation 
Security Officers, or TSOs. Those individuals who work on the 
front lines to swing passengers' baggage and cargo at our 
airports, yet are not covered by many of the Civil Service 
protections that apply to most other federal employees. In 
fact, they have far fewer protections than managers do.
    A recent GAO report found while TSA, and Customs, and 
Border Protection Agency had roughly the same number of 
employees, TSA had more than double the number of misconduct 
cases that CBP had in fiscal year 2016. GAO also found that 
between 2014 and 2016 the number of TSA employees declined, but 
the number of misconduct cases grew from more than 13,000, to 
more than 17,000.
    Administrator, do you have any insight as to why these 
trends have occurred?
    Mr. Pekoske. Mr. Cummings, with respect to the data, the 
45,000 misconduct cases, part of the reason that number is so 
high, and I think that number is unacceptably high, let me 
first state that, is the way that we measured it was a little 
bit different than the other agencies. So it is not necessarily 
an apples to apples comparison.
    But what we found when we looked at that data was that we 
were using misconduct for what were really performance issues. 
So what we have done is we have come out with some direction as 
to how we separate for our employees what is a performance 
issue versus a misconduct issue, and to not try to use the 
misconduct avenue when there is truly a performance issue at 
play.
    The other thing, sir, that is very important to me, it is 
in my leadership principles, is I want to move TSA away from a 
discipline-focused organization, where if somebody does 
something wrong, the first thing we think about is disciplining 
them, and rather move to more of a coaching and a mentoring 
system.
    My experience with our employees is they want to do a good 
job. They just sometimes need some extra help in being able to 
perform, and we should be more coaching and mentoring in that 
regard.
    Mr. Cummings. Well, I see my time has run out, but let me 
just say this. And the chairman has been very good at this. I 
think at every hearing that we have had, I have heard him say 
these words, and I agree. I have had good experiences with the 
TSA employees at the airports, but as I have told you, that 
when this committee was addressing the issue of the Secret 
Service, I had become convinced that they had been lulled into 
a culture of complacency.
    And because of the repetition of this job, I think we have 
to make--I am just curious, and perhaps you can answer it in 
somebody else's question, how do we keep their morale up? I saw 
where we were almost at the bottom, as far as places where 
people--good places to work. We were like 360, and the bottom 
was 363. So we are close, just scraping that bottom. And so 
that is not something that you or none of us would be proud of.
    But more importantly, we want to make sure that our 
constituents are treated right, and they are able to have 
confidence that when they are being checked that it is--it is 
needed, and that we want to make sure that they are treated in 
a courteous way. Like I said, I am a member of Congress. I 
always get good treatment, but I don't know about all my 
constituents. Okay?
    Mr. Pekoske. Yes, sir. And what we have done in that regard 
is we have changed our core values as an agency. Our core 
values now are integrity, respect, and commitment, respect 
being a very critical part of that, respect for each other in 
the workplace, respect for the Constitution, of rule of law, 
privacy rights, and importantly, respect for our passengers.
    The other thing that I have been working very, very hard on 
is to make sure that we introduce the technology tools that our 
officers need to be able to perform their mission. When I look 
at the IG reports and our own covert testing, a lot of the 
solution there involves technology. And so I have been very 
hard at work in doing that, and have gotten great support out 
of the U.S. Congress in that regard.
    The other thing, sir, is that within ATSA, I have the 
ability to set pay for the workforce, and ATSA gives me the 
authority to provide what is called in-band increases every 
year, which is different than Title V general schedule, which 
is every two or every three.
    Unfortunately, we haven't used that authority, and that is 
something that I am exploring actively at this point in time. 
There is also, of course, a financial component to that. But, 
you know, one of the problems we have in TSA right now, 
particularly at the entry level, or the first two or three pay 
bands, is that most employees are at the very low end of the 
pay band.
    There should be a bell curve there. It shouldn't be 
everybody at the bottom of the pay band. So I am going to work 
very hard to see if we can't remedy that, at least start moving 
in a direction, but it is going to require financial resources.
    Chairman Gowdy. The gentleman from Alabama is recognized.
    Mr. Palmer. Thank you, Mr. Chairman.
    Mr. Pekoske, we had hearings about mistreatment of TSA 
employees in this committee before. And first of all, I want to 
say that I have gotten to know the TSA employees at the 
Birmingham Airport, and I think they are outstanding. They do a 
great job. My concern is, is that we have had this issue of 
whistleblowers, and as the gentleman from Maryland just pointed 
out, the retaliation against them.
    Have you individually met with any of the whistleblowers 
who testified for the committee on retaliation at TSA?
    Mr. Pekoske. Yes, sir. I met with a whole series of 
whistleblowers a couple months after I came into the position. 
Very good conversations with each of them. Couple of things 
that came out in those conversations, no surprise to any of us 
in this room, first and foremost is they had good ideas that we 
should have listened to. And I really want, and I encourage 
every single employee in TSA, if you have a better way to do 
our mission, or a suggestion as to how we can improve, to 
please voice it. But we have got to welcome those voices when 
they are raised.
    The other thing that the whistleblowers said was that they 
are totally dedicated to the TSA mission, even after all they 
went through with respect to retaliation. That speaks volumes 
to me to their character. And one of the things that I 
reflected back to my senior executives after I had those 
meetings was the fact that we do need to do everything we can 
to make sure that whistleblowers feel that they can come 
forward, and not be in the category of whistleblowers, but just 
employees that have a better way of doing something, and that 
we seriously consider it.
    Additionally, sir, we have trained about 7,000 or 8,000 
people in the past year just on whistleblower protection, 
because I want that word to go out. This is serious business. 
We do not retaliate. And in fact, we should do something 
completely different. We should welcome that input into our --
--
    Mr. Palmer. Let me interrupt you and ask you, in this 
training that you are doing, how much of that includes the 
recommendations made by the people who have been punished for 
being whistleblowers?
    Mr. Pekoske. It incorporates largely everything they said.
    Mr. Palmer. All of the ideas that they brought to you?
    Mr. Pekoske. Yes, sir. And the point of the training was, 
just to make sure that the workforce knew that, hey, if 
somebody has an idea, and they have a better way of doing 
business, you can't retaliate against them if you think it 
threatens your position or threatens decisions that you made. 
You just simply can't do that. So we wanted to raise the 
awareness.
    And we also wanted to raise the awareness for the workforce 
that if you feel you have been subject to retaliation, there is 
an easy way to report it.
    Mr. Palmer. Well, what concerns me a little bit here is 
that Deputy Administrator Patricia Cogswell recently informed 
committee staff that TSA is considering issuing directed 
reassignments to FSDs as part of its reorganization plans. Are 
you making sure that in this reorganization plan that none of 
these reassignments are punitive?
    Mr. Pekoske. A couple things on the reorganization, sir. 
First off, no decisions have been taken with respect for that 
reorganization. I get briefed at the end of this week. But the 
process we used has been completely open and transparent, and 
every single senior member of the security organization that 
runs the security in the airports has been involved every step 
of the way as to what is going on.
    Mr. Palmer. I appreciate that. But what I am really wanting 
to know is are you taking proactive steps to make sure that 
people who have been mistreated are not mistreated in this 
reorganization plan?
    Mr. Pekoske. Yes, sir. We will do no punitive involuntary 
reassignments. And that is something that we ----
    Mr. Palmer. Will you allow the employees who are being 
redirected to have an opportunity to speak or to request other 
assignments?
    Mr. Pekoske. Yes, sir. And we may need to relocate some 
employees. I don't know what we are going to approve yet, 
because I have not seen the plan, but certainly ----
    Mr. Palmer. Let me ask you ----
    Mr. Pekoske.--you know, I want to maintain the management 
flexibility to put the resources in the right location. But I 
can assure you that we will have a conversation and a good one 
with each employee that might be affected.
    Mr. Palmer. Well, let me ask you this in the time that I 
have remaining. In March of last year, the committee requested 
documents pertaining to the whistleblower cases that had been 
withheld from the Office of Special Council, and TSA, and DHS, 
and OGC still refuse to produce those documents in defiance of 
a congressional subpoena.
    In my time on the Oversight Committee, that has been one of 
the most frustrating things that we have had to deal with, is 
the failure of various agencies to respond appropriately to a 
subpoena. And I want to know why these documents are still 
being withheld from Congress, and what you are going to do 
about making sure we get them.
    Mr. Pekoske. Sir, we provided all the unredacted documents 
that the Office of Special Counsel requested, based on the law 
that was passed by Congress in December of last year.
    With respect to the Congress, I follow Executive Branch 
guidance, but I pledge to you that I will do everything I can 
to accommodate as much as I can with Executive Branch guidance, 
but I need to follow the guidance within the Executive Branch.
    Mr. Palmer. Mr. Chairman, if I may, I have one more 
question. I was sitting in on the deposition yesterday, with 
the principal deputy general counsel, Joseph Maher, and despite 
a bipartisan request, DHS refused to provide the committee with 
emails the federal security director sent to his son pertaining 
to a whistleblower retaliation case on the grounds of attorney-
client privilege. Do you think this is reasonable?
    How can we exercise oversight and really resolve this 
situation if we are going to have to continue to play these 
kind of games?
    Mr. Pekoske. And having a conversation like you did with 
the department is--I am going to take my guidance from the 
department with respect to what information I am allowed to 
release. But like I said, I can assure you that I will do 
everything I can within that guidance to ensure the committee's 
informed.
    Mr. Palmer. Well, you are supposed to comply with all the 
laws and regulations, including the Office of Special Counsel's 
Reauthorization Act, and thus far, as far as I can tell you, 
you have not produced the documents requested by OSC until the 
December law required it. When you delay for months, and 
months, and months, I have a hard time seeing that as 
cooperative.
    With that, Mr. Chairman, I thank you for your indulgence, 
and I yield back.
    Mr. Pekoske. And yes, sir, if I could, and I understand 
your frustration, we did provide all the documents that OSC 
requested, once the law was in place.
    Mr. Palmer. Yeah. Once the law was in place, but when the 
committee asked for it, I think that you need to provide those 
documents in a more timely manner.
    Mr. Pekoske. Sir.
    Chairman Gowdy. The gentlelady from the Virgin Island, Ms. 
Plaskett, is recognized.
    Ms. Plaskett. Thank you, Mr. Chairman, and thank you, sir, 
for being here.
    With respect to my colleagues' questions just a moment ago 
about those documents, and the request for that, so it is your 
position that you are following the Executive Branch's 
guidance. And if that guidance is counter to what your counsel 
is giving you, then what is your position with respect to us 
receiving documentation?
    Mr. Pekoske. Well, the guidance, ma'am, that my counsel is 
giving me should be absolutely consistent with what the DHs 
guidance is. In fact, the general counsel is the direct 
supervisor of the chief counsel in TSA by our organizational 
structure.
    Ms. Plaskett. And then so if that guidance leads your 
counsel to refuse to give this committee what it believes under 
our oversight laws were allowed to receive, then you will 
follow that guidance, correct, of your counsel?
    Mr. Pekoske. Yes, ma'am.
    Ms. Plaskett. Which would then probably lead to this 
committee having to do what it has done in the past, which is 
then issue a lawsuit under FISA or FOIA request, which seems to 
me to be really counterproductive to the work of what Congress 
is supposed to be. Do you see a way for us to work through that 
without having to go to that extreme?
    Mr. Pekoske. Ma'am, what we've done, particularly with 
respect to the last request from this committee, is we have 
tried to find every accommodation we possibly could. A recent 
example of that is, you know, we were doing camera side by 
sides in TSA headquarters, with the redacted and unredacted 
version of documents. The committee staff had asked for more of 
a paper version. It would still be at TSA headquarters, but to 
be able to use a paper copy to make it more expeditious. 
Because it is hard to look at a screen and compare differences. 
And so I will find every way I can ----
    Ms. Plaskett. Unless you are a teenager who is used to just 
looking at the screen and not paper, right?
    Mr. Pekoske. Right.
    Ms. Plaskett. Okay. All right. Thank you.
    Mr. Pekoske. Thank you.
    Ms. Plaskett. This a conversation that you and I had before 
the hearing started, and thank you for reminding me about our 
last encounter personally with each other, which was 
immediately after the storms in the Virgin Islands.
    But one of the things I wanted to talk with you about is an 
attempt my office is making to act as an intermediary between 
the local government, and TSA, and Customs, and Border 
Protection. I have had conversations--my staff has had 
conversations with numerous people in both of those agencies, 
as well as me speaking with Secretary Nielsen during her last 
visit to St. Croix in the beginning of August, in which we have 
found that we had--so in the Virgin Islands we have a lot of 
individuals who come in from the Eastern Caribbean, and we try 
to segregate those individuals from American citizens and 
others coming from domestic flights. Because we are outside of 
the Custom zone, people have to be screened separately.
    Screening equipment was taken out of the St. Thomas 
office--out of the St. Thomas Airport, and we still have 
equipment on the St. Croix Airport, but we have been told that 
that is scheduled to leave as well. And I know that there has 
between some meetings the local government, Customs, and Border 
Protection, and TSA.
    The resolution that they came up with, meaning the federal 
agencies, is not satisfactory to our partner airlines that are 
bringing people in. We are not in a position at this time to 
purchase equipment on our own, nor can we afford to lose our 
traffic coming from the Eastern Caribbean. These are 
individuals who are not coming just for tourism. They are 
coming to use our hospitals, other types of facilities. These 
are serious revenues that are coming into the Virgin Islands.
    And I have told you personally that I find it very 
frustrating that I cannot get TSA to agree to a meeting with 
the local officials, my office, and Customs, and Border 
Protection. It is frustrating at the most basic level, but more 
personally, I find it very disrespectful that a member of this 
committee, in particular, a member who has gone through what we 
have gone through in the Virgin Islands, cannot get TSA to 
agree to sit down and have a meeting, and continually, between 
Customs, and Border, and TSA, pointing the finger to each other 
as being responsible.
    I am glad that you have committed that you are going to 
have someone from your office have a facilitated discussion, so 
that we can come to a resolution that we don't continue to lose 
air traffic into the Virgin Islands.
    Mr. Pekoske. Yes, ma'am. And we will certainly have 
somebody from TSA at that meeting, and then I will personally 
follow-up ----
    Ms. Plaskett. And that will be sooner rather than later, 
correct?
    Mr. Pekoske. That will be as soon as you want.
    Ms. Plaskett. Okay.
    Mr. Pekoske. And then I will personally follow-up with you 
on that issue after that meeting is over. I would also just 
like to add briefly that I saw your leadership in action 
following Hurricane Irma in St. Thomas, and I really credit you 
for that. And thank you.
    Ms. Plaskett. Thank you. Thank you so much.
    I yield back.
    Chairman Gowdy. The gentleman from Kentucky is recognized.
    Mr. Comer. Thank you, Chairman Gowdy.
    My first question, whistleblowers have alleged that some 
previous TSA leaders prioritize wait times at screening tech 
points at the expense of security. In 2015, TSA implemented 
changes to its screening procedures to reemphasize security. 
Have you continued this approach?
    Mr. Pekoske. Yes, sir. The first thing I said when I got 
into the job is our main job is security effectiveness, and it 
wasn't the job of our officers to worry about wait times. It 
was the job of management.
    Mr. Comer. Okay. What would you say to TSA employees in the 
field to reaffirm that security is their first priority?
    Mr. Pekoske. I say it every time I have an opportunity to 
talk to my workforce, and I put it out in documents. Now that 
is the most important thing we do. It makes no sense to have a 
lot of people moving through a security line very quickly with 
bad security.
    Mr. Comer. The House recently passed a bill requiring TSA 
to only allow members of trusted traveler programs to use 
Precheck lanes. If this legislation becomes law, is TSA 
prepared to implement it without any delay?
    Mr. Pekoske. We have had extensive discussions with our 
oversight subcommittee Chairman Katko, and we are prepared to 
start prototyping that actually in the next 6 months, or so, 
just to see how it works, and to make sure we have the right 
procedures in place. And I would add, sir, that this will 
improve security. It will add security.
    Mr. Comer. What type of turnover does TSA have? If your 
labor situation--do you have challenges finding TSA workers and 
retaining them, or is it pretty stable?
    Mr. Pekoske. Yes, sir. I think the attrition rate, the rate 
at which we lose people, is still way too high. It is a little 
bit below 20 percent, but that is still way too high. And that 
drive a lot of costs, you know, cost of recruiting, cost of 
training new employees, and also has a security effect, because 
you have got the experience that is just not continuing to be 
built up. So that is a big concern of mine.
    The other thing I would just add is that the economy is 
doing very well in this country, which is a great thing, but, 
you know, it challenges us sometimes, given the wages that we 
pay for entry-level people, to attract them in some markets 
around the country. So within the Aviation Transportation 
Security Act, I have the ability to put pay incentives in 
there, and I have done that, but that comes at some financial 
costs.
    Mr. Comer. Okay. Thank you, Mr. Chairman. I yield back.
    Chairman Gowdy. The gentleman from Kentucky yields back. 
The gentlelady from Michigan is recognized, Ms. Lawrence.
    Ms. Lawrence. Thank you.
    At this committee hearing in March 2017, the former DHS 
Inspector General Roth testified that arbitrary personnel 
practices can have a chilling effect on whistleblowers, who 
might otherwise speak out about security deficiencies. At that 
hearing, I asked the inspector general, ``If TSA employees are 
reluctant to raise these security deficiencies they observe, 
couldn't that put aviation security at risk?'' And Inspector 
General Roth answered, and I quote, ``Well, that is absolutely 
the case.''
    So administrator, do you agree with Inspector General Roth, 
and can arbitrary personnel practices chill whistleblowers, and 
put aviation security at risk?
    Mr. Pekoske. I completely agree with him, and it can 
absolutely put aviation security at risk. That is why I am so 
focused on it.
    Ms. Lawrence. So would you agree with me that is critical 
that this nation's security--for our nation security, that the 
TSA have a personnel system in place that protects 
whistleblowers from retaliation, and protect employees from 
arbitrary personnel decisions.
    Mr. Pekoske. We have the authority already in law, ma'am, 
and it is against the law in TSA, as it in every other agency 
to retaliate against whistleblowers. Additionally, we do not do 
punitive involuntary reassignments at all.
    Ms. Lawrence. So I want you to know that we have had, I 
guess, previous hearings about this. The concern for having a 
strong TSA workforce, with integrity and the protections for 
their job, is a critical element of our security. And I 
appreciate you being here and agreeing, so when you lead, I 
expect for you to continue your commitment you are making here 
today. Because if there are some discrepancies or deficiencies, 
how are we ever going to get better, if we don't have an 
environment where we are nurturing the fact of us all being on 
one team.
    And I just wanted to congratulate you on something else you 
said, that we need to mentor and teach, instead of beating up 
or disciplining every employee.
    I thank you, and I yield back.
    Chairman Gowdy. The gentleman from Iowa is recognized.
    Mr. Blum. Thank you, Chairman Gowdy. Good to see you, my 
friend.
    A couple questions here for you. Have you individually met 
with any of the whistleblowers who testified before the 
committee on retaliation at TSA in 2016?
    Mr. Pekoske. I don't have the list of those that testified, 
but I have individually met with whistleblowers. In fact, it 
was at my initiative that we had those meetings. And so I met 
with several whistleblowers several months ago just to have a 
dialog with them, see how they were doing, what their 
experience was, so that I could--to the extent I ----
    Mr. Blum. What was their experience?
    Mr. Pekoske. Their experience was one of great frustration, 
as I completely empathize with. I mean they thought they were 
offering up good ideas, and they got stymied by the 
organization almost every step of the way.
    Mr. Blum. But not retaliated against.
    Mr. Pekoske. Well, the folks that I talked to, I think in 
every conversation there is always a feeling of some level of 
retaliation. And what I want to make sure we do is that not 
only do we not retaliate, I don't think that is enough, 
personally, I think we should welcome different perspectives, 
and importantly, give our employees feedback as to what we 
think. Because not every idea is something that we can 
implement, but to have that dialog.
    Mr. Blum. I am from the private sector, and culture in 
companies is important a lot. What is the culture at TSA?
    Mr. Pekoske. The culture is something I am totally focused 
on. In fact, when I published the strategy, when I published 
the administrator's intent, if you read those, it is a guidance 
to the culture that I want to develop within TSA. And based on 
input I received from a lot of people ----
    Mr. Blum. What is that culture? What are you trying to 
develop?
    Mr. Pekoske. I am trying to develop a culture where we all 
work together, where we support each other, where different 
points of view are respected, and we lift each other up, and we 
care for our people. And I want a culture where people look at 
their employment in TSA and say, ``I can't wait to get to work 
today.''
    Mr. Blum. And that culture starts at the top.
    Mr. Pekoske. It does.
    Mr. Blum. What do you personally do to make sure that that 
culture starts at the top?
    Mr. Pekoske. Yes, sir. What I personally do is, one, I talk 
about it a lot. And every time I--you know, I visit TSA men and 
women almost every single week, sometimes multiple times a 
week. In fact, I have just gotten back from like a 2-and-a-
half-week trip throughout TSA. And I want to have that 
engagement with my employees, so I can reinforce those 
messages, and also very importantly, get a sense for how it is 
going out there.
    And when I meet with employees, I don't just meet with them 
in a big group. I walk around the checkpoint and I talk with 
people person to person. Because it is only during those 
encounters really that you are going to get some feedback that 
is of particular value.
    And so I want to ensure that I don't lose touch with the 
workforce, and I also want the workforce to know that I work 
for them. You know, my job is to make sure that they have ----
    Mr. Blum. Servant leadership.
    Mr. Pekoske. Yes. Absolutely. That, you know, they have the 
tools, and the direction, and the support, and importantly, 
when something happens that lands a transportation security 
officer or a federal air marshal in the news, if they followed 
our procedures, I need to be right behind them, and be out in 
front, and we have done that.
    So I think that is a very strong message and that is 
certainly what I will continue. I have done it for--you know, 
this is the way I have worked for 40 years.
    Mr. Blum. How would you say the morale is?
    Mr. Pekoske. I would say the morale actually is not what 
the public perceives it is. If you read reports and things like 
that, you think, ``Wow, the morale must be really terrible.'' I 
don't see it as being really terrible. I think we can make some 
improvements. And I think that we just need to have a concerted 
leadership effort to do that. But I also ----
    Mr. Blum. Why is the perception not good then?
    Mr. Pekoske. Because, in a lot of ways--I will give you an 
example. On the Federal Employee Viewpoint Survey, yes, you 
know, we scored more towards the bottom than on the top, but it 
is important that everybody recognize we are improving. And, in 
fact, if you look just inside the DHS components, we are 
actually improving quite well compared to our other DHs 
partners. And we all want to move as far forward as we possibly 
can.
    But the story that doesn't get out is the positive things 
that are going on, and that is a large part of what I try to 
do.
    Mr. Blum. To get that story out.
    Mr. Pekoske. Absolutely
    Mr. Blum. Get it out.
    Mr. Pekoske. Yes.
    Mr. Blum. Are you trying to do that?
    Mr. Pekoske. I am. In fact, in my ----
    Mr. Blum. In marketing 101, perception is reality.
    Mr. Pekoske. Yes. Right. And so every chance I get, I speak 
to that. I did it today in the opening statement. Every chance 
I get to address the media, and I do that often, I talk about 
the quality of the workforce that we have. Every chance I get, 
when I see an employee did something particularly good, I 
personally call them, and tell them, because that telegraphs 
throughout the organization.
    And as you know, sir, from your private sector experience, 
once you turn the corner and things start to move in the right 
direction, it tends to multiply, going forward. And that is 
really what I hope happens over the next several years.
    Mr. Blum. I agree with that, and also, I just end with, 
again, it starts at the top, with you, and your leadership ----
    Mr. Pekoske. Mm-hmm.
    Mr. Blum.--team. And you would agree with that, correct?
    Mr. Pekoske. Totally agree with that. Yes, sir. Thank you.
    Mr. Blum. Mm-hmm. I yield back, Mr. Chairman.
    Chairman Gowdy. The gentleman from Massachusetts is 
recognized. Mr. Lynch.
    Mr. Lynch. Thank you, Mr. Chairman, and the ranking member, 
for holding this hearing. I have a couple of unanimous consent 
requests to enter into the record. A letter from the American 
Federation of Government Employees.
    Chairman Gowdy. Without objection.
    Mr. Lynch. Thank you.
    Mr. Lynch. Thank you.
    Welcome, Administrator Pekoske. We really appreciate you 
coming here to help the committee with its work.
    We had had a choppy relationship on this committee with TSA 
in the past. And that has been because of a lack of cooperation 
in our request for documents, and testimony, in some cases.
    I will say that it is bipartisan non-cooperation, from your 
standpoint. You have refused to give the democrats and the 
republicans helpful information. So I am just asking you to try 
to change that as well when you change the culture there at 
TSA.
    In the past, John Roth, who was the inspector general for 
TSA, a great American in our opinion, wonderful public servant, 
did wonderful work, he had red teams going out there, and--you 
know, red teams. They would strap weapons on their legs and go 
through the screening stations. It was his work that disclosed 
that we had like an 80 percent or 84 percent failure rate going 
through screening.
    So I am hoping that acting inspector general, John Kelly, 
who I understand is also very good, will continue to test our 
defenses and our security at those stations, and hopefully, our 
success rate will climb.
    We have got some outstanding issues. One, we have got this 
so-called Quiet Skies program, where air marshals were 
reportedly surveilling the general public. So this is not the 
case where in the usual context air marshals will be placed on 
planes when we know that someone who is on the no-fly list or 
someone who is a suspect is going to travel. This is a case 
where the general public is surveilled, and there is no 
probable cause to do so. So that doesn't really fly with me, in 
terms of what our air marshals should be doing.
    So I don't know how much you can say in this setting, but 
we need to re-engineer that program, so that we comply with the 
constitutional rights that Americans have, right?
    Mr. Pekoske. Yes, sir. If I can address both parts of your 
comments, please.
    Mr. Lynch. Yeah.
    Mr. Pekoske. First, on covert testing, I agree. Inspector 
General Roth was a great partner to work with, and he helped 
TSA out a lot. And you could imagine being in my position when 
those covert test results are ----
    Mr. Lynch. I am only giving you a minute now. So when we 
get down to one minute, I am taking my time back.
    Mr. Pekoske. Okay. Got it. So anyway, we took his results, 
and we took action on them. And if you look at all the 
procurements we have going on right now, it is to bring the 
technology that both his testing and my own testing revealed.
    With respect to Quiet Skies, Quiet Skies is a risk-based 
program. It does not surveil the general public. It surveils, 
and puts air marshals on flights of people that we think 
present more risk in flight. It is a risk-based program 
consistent with all the law and direction that we have received 
from the Congress. And importantly, it is not a new program 
either.
    Quiet Skies has been around since 2012. The privacy impact 
statements have been published, and, you know, that information 
is out there available for the public to see. But to me, it is 
a very beneficial intelligence-driven risk-based program that 
results in better utilization of the Federal Air Marshal 
Service.
    Mr. Lynch. Okay. Well, maybe we need to talk about that in 
a different ----
    Mr. Pekoske. Mm-hmm.
    Mr. Lynch.--setting, in a secure setting then.
    The other piece that you are responsible for, you are the 
lead agency on pipeline infrastructure security. And in 
Massachusetts we just had a horror show up in Andover, and 
North Andover, and Lawrence, where we had I think upwards of 70 
homes explode, because the gas company there, Columbia Gas, had 
put something in order of ten times the gas pressure through 
those lines. Went through all the checks and balances that we 
have in that system, and cased major damage, and at least one 
fatality.
    Now I know that you have just issued guidelines on pipeline 
safety. I also have been fighting in my own district, in West 
Roxbury, and in Weymouth, a couple of pipelines are going in 
there in very thickly settled residential areas, high-pressure 
gas lines.
    In one case, the gas line goes through a rock quarry that 
is blasting. You can't make this stuff up. Going through an 
active blasting area, and I can't get them to relocate that 
high-pressure pipeline out of that quarry, which is right next 
to a residential area in my district. I have tried everything. 
We have gone to court, and I still cannot beat the gas 
companies.
    What are you doing--in light of the dangers that we have 
now seen happening, is there any interest or initiative to take 
a closer look at the pipeline security guidelines that you have 
issued?
    Mr. Pekoske. So the pipeline security guidelines were just 
recently published, and actually, they are quite up to date, 
and represent a really good effort on the part ----
    Mr. Lynch. It would be before these explosions, though.
    Mr. Pekoske. That is right, but the explosion really is a 
safety, not a security issue, as I understand it. It was an 
over-pressurization by the ----
    Mr. Lynch. What is the difference ----
    Mr. Pekoske. Well, security would mean you have ----
    Mr. Lynch.--between safety and security?
    Mr. Pekoske.--you have an actor who is trying to disrupt 
the system and cause a lot of harm to a lot of people. A safety 
issue is a misuse of a procedure that creates a safety 
situation that can also result in injuries to folks. But it is 
not by an actor.
    And we work very closely with our Department of 
Transportation agencies in that regard. They have safety 
responsibility. We have security responsibility.
    Mr. Lynch. Well, I don't care who blows up my neighbor's 
house ----
    Mr. Pekoske. Right.
    Mr. Lynch.--if it is a terrorist or it is the gas company, 
it is a problem ----
    Mr. Pekoske. I agree with that.
    Mr. Lynch.--right? So we need to eliminate the 
vulnerability in the system that allows that to happen.
    Mr. Pekoske. Mm-hmm.
    Mr. Lynch. Whether it is, you know, stupidity or a 
nefarious intent that blows up the house, we need to secure the 
system and make sure that there is some countermeasures and 
safeguards against either actor, is what I am saying.
    So I think we ought to take another look at that, and I 
know, Mr. Chairman, you have been very indulgent, and I 
appreciate that. You haven't cut me off, so I will yield back 
the time that I don't have.
    Mr. Pekoske. Yes, sir, Mr. Lynch, I would like to come chat 
with you about Quiet Skies. I would enjoy that opportunity. 
Thanks. Thanks.
    Chairman Gowdy. The gentlelady from New Jersey is 
recognized.
    Ms. Watson Coleman. Thank you, Mr. Chairman. Thank you, Mr. 
Pekoske for being here.
    As always, I am impressed with the kind of commitment you 
have made to try to make this agency more respectful of its 
employees. I still think we need to talk about some structural 
deficiencies, as it relates to whether or not there should be a 
Title V coverage of your employees. But you have made progress, 
and I think that that is notable.
    I want to just talk to you about something else, though. I 
understand that you are considering organizational changes to 
the TSA that would majorly scale back the duties of the TSA's 
international office, the Office of Global Strategies, by 
assigning many of its duties to other offices.
    Now given the grave threats to aviation emanating from 
overseas, cohesive international security efforts are as 
important as ever. And so I am wondering what is the impetus 
for these changes?
    Mr. Pekoske. Yes, ma'am. Thank you for your comment. And, 
if anything, I want to put more emphasis on international 
engagement. We have done a lot of work in TSA over the past 
year to raise the global bar on aviation security. I just came 
back on Monday from a meeting with, ICAO, the International 
Civil Aviation Organization.
    I just had a townhall yesterday, where I told all of my 
employees that I want to put more TSA men and women in 
significant positions internationally, because they can help 
us.
    Ms. Watson Coleman. Okay. Then perhaps what I need to ask 
you is that before you engage in a restructuring, would you 
have a conversation with Congress about how that does, indeed, 
enhance the international oversight that we are concerned 
about?
    Mr. Pekoske. Yes, ma'am. I would be happy to meet with you, 
or whatever group you would like to convene.
    Ms. Watson Coleman. Great. Because it just seems to me 
that, you know, perhaps we are misreading what your ----
    Mr. Pekoske. Mm-hmm.
    Ms. Watson Coleman.--what it means by taking this agency, 
this office, and dispersing some of its employees and resources 
elsewhere.
    I also have a question to ask you regarding the long-
awaited solicitation for the CT machines. You know, we have all 
just been waiting so much for this. But I was sort of 
disappointed to hear that you all are considering a single 
vendor.
    I am very concerned about a single vendor for a number of 
reasons. Number one, I think that it could possibly eliminate 
or reduce the innovations that come from competition. Number 
two, it sets somebody up to be the big dog that we are dealing 
with, and that reduces competition, and it might also reduce 
innovation.
    And number three, I think it has a negative impact on 
minorities and women, who are in that field, and are working 
very hard, but just don't have the kind of resources to be the 
big dog that we are considering.
    So tell me, you know, your thinking about this. I know we 
are anxious to get these machines out. I know. I know. I know. 
But still and all, this short-term gain may have long-term 
implications, and I want to know what your response would be to 
that.
    Mr. Pekoske. Yes, ma'am. Thanks for the question. The 
initial solicitation, the RFP, was just released a couple of 
weeks ago, and it closes a couple weeks from now. We have five 
vendors, four very active, involved in the competition. The RFP 
says that we intend to select one, but reserve the option to 
select additional vendors for the award.
    But the important thing to keep in mind with this is, this 
is just the first procurement. This is using the fiscal year 
'19 funds that has received great support from the Congress. 
Roughly 200 CT machines. We need to replace 2,000.
    And this is for the existing standard made better rather 
than an entirely new standard. So my point is, is that the much 
larger procurements are in the out-years, not in fiscal '19.
    Ms. Watson Coleman. Okay. So I am going to watch it 
closely. I hope I get reelected, so that I can.
    Mr. Pekoske. Okay.
    Ms. Watson Coleman. But I want to hold you--I want to hold 
you accountable, that we are going to increase the diversity of 
vendors, particularly women and minorities, who just don't get 
a chance to work in this field, and also that we can ensure 
that there is a kind of innovation, because things are changing 
so quickly. As soon as we figured it out, they figured it out, 
and we have to figure it out differently.
    I know you are committed to that in sort of a holistic way. 
I would like for you to make sure that your organization drills 
down, and understands that you are committed to diversity and 
competition here.
    Thank you very much. And with that, I yield back.
    Chairman Gowdy. The gentlelady yields back. The gentlelady 
from New York is recognized. Ms. Maloney.
    Ms. Maloney. Thank you for your testimony today. As a part 
of good news, 2 weeks ago, three TSA employees received the 
Office of Special Counsel's Public Servants of the Year Award. 
And there is a photo of them up there, a photo of Sharlene 
Mata, Heather Callahan Chuck, and Michael Abreu. And they 
reported security concerns at the airport where they worked, 
but rather than addressing their concerns, senior managers at 
TSA retaliated against these employees.
    They moved them to a new duty station at different 
airports. They forced them to move their families hundreds of 
miles away. But these whistleblowers fought this retaliation, 
and TSA ended up paying them $1 million as part of a settlement 
agreement. That money came from the United States taxpayers, 
and those were tax dollars.
    So my question, Admiral, is, I am sure you agree, that the 
American taxpayers should not have to pay $1 million because 
senior TSA managers retaliated against employees reporting 
security concerns. Is that right?
    Mr. Pekoske. Well, the other part of it, ma'am, is that, 
you know, when we make a decision as to whether to engage in 
settlement negotiations, we also consider the cost of 
litigation on the part of the government. And that is a factor, 
is if the cost of litigation would cost us close to that amount 
or more, it might make more sense to settle the case. I am not 
saying that was a play in this case, necessarily, but that is 
also a factor when we look at settlement negotiations.
    I would say, too, that we appreciate what each one of the 
three of them contributed to TSA, based on what they--the 
information they provided. And additionally, the directed--the 
involuntarily directed reassignments, we don't do anymore, 
based on this.
    Ms. Maloney. Well, another approach is not to retaliate 
against people who are trying to make the airlines more safe.
    Mr. Pekoske. Mm-hmm.
    Ms. Maloney. I would say you should be giving them an award 
if they are trying to make it--have a legitimate concern about 
safety. After 9/11, creating TSA was a prime goal of this 
Congress, and there are good men and women working there, and 
the security can save lives.
    But these funds, you know, if you hadn't gotten into the 
fights with them, these funds could have been used to increase 
airport security, or even address the security deficiencies 
that these employees warned about. But there was a bigger 
problem.
    These employees filed whistleblower retaliation claims with 
the Office of Special Counsel, which is the federal office that 
handles these issues. But TSA refused to provide documents to 
the Office of Special Counsel about the case. So we actually 
had to pass a law, now that is an extreme, when you have to 
pass a law to force TSA to turn over those documents. And it 
was after the Office of Special Counsel got those documents. 
After they saw this retaliation, the TSA agreed to settle the 
case for $1 million.
    The problem is that even now TSA is withholding these very 
same documents from this committee. We issued a subpoena for 
them a year-and-a-half ago, but the agency will not turn them 
over.
    So Admiral, why is TSA defying this committee's bipartisan 
subpoena? What is the legal basis?
    Mr. Pekoske. Ms. Maloney, first and foremost, we don't 
tolerate whistleblower retaliation. That has been my stance 
since I have been the administrator, so ----
    Ms. Maloney. But this happened.
    Mr. Pekoske. It happened before I got into TSA, and I am 
not saying I am the magic wand that is going to fix all those 
problems, but I want people to know that that is not 
acceptable, and I will take action when those cases occur, if 
they do.
    Additionally, in my opening statement I said that, hey, I 
am responsible for good stewardship of public funds, and I 
would prefer not to spend a million dollars. I agree with you 
100 percent ----
    Ms. Maloney. But sir, Admiral, my question is right now you 
can hand these documents over. We have a subpoena for the 
documents. TSA is not handing the documents over.
    Now I know the members of this committee. If you don't hand 
them over, they will pass a bill, forcing you to hand them 
over. They are not going to stop. So why are you not handing 
these documents over? They have a subpoena, a legitimate 
subpoena.
    Mr. Pekoske. Yes, ma'am. And I appreciate your concern. I 
am following Executive Branch guidance in that regard. So that 
is, you know, I will do everything I can to provide information 
to this committee. I believe very strongly in your oversight 
function, but I have limitations within the Executive Branch as 
to what I will provide ----
    Ms. Maloney. No. No. No. The subpoena is not to the 
Executive Branch.
    Mr. Pekoske. Mm-hmm.
    Ms. Maloney. The subpoena is to you. It is to you.
    Mr. Pekoske. Right. And I have not been subpoenaed. And I 
hope ----
    Ms. Maloney. To TSA. To TSA.
    Mr. Pekoske. Right. Right. And I hope not to be. And, you 
know, I will continue to follow the guidance that the Executive 
Branch provides.
    Ms. Maloney. But the Executive Branch and President Trump 
has not asserted any executive privilege. And not executive 
privilege, no deliberative privilege. Nothing. So they are not 
holding you up. They are not holding you up.
    And this was issued to TSA, and not the President, not the 
Executive Branch, not DHS. That means that you, as the 
administrator, have the ultimate obligation to comply with it.
    Mr. Pekoske. I understand all that. I am not an attorney. I 
am not going to wade into all the legal issues that are 
involved here. I will follow the guidance that the Department 
of Homeland Security provides.
    Ms. Maloney. Okay. Well, you have two choices, according to 
the law.
    Mr. Pekoske. Mm-hmm.
    Ms. Maloney. Either produce the documents that have been 
subpoenaed, or produce a letter showing that President Trump 
has formally put forward executive privilege over them. That is 
it.
    So my question is, will TSA produce the documents that this 
committee subpoenaed more than a year ago, relating to the 
claims of those whistleblowers, who were clearly wronged?
    Mr. Pekoske. And I repeat my answer. I will follow the 
guidance that the Executive Branch and the Department of 
Homeland Security provide me, and I will try to find ----
    Ms. Maloney. But the subpoena went to you. There is no 
guidance from DHS. And I doubt the President even knows about 
this.
    Mr. Pekoske. Mm-hmm.
    Ms. Maloney. And he hasn't exerted executive privilege. The 
paper is on your desk. Are you going to produce these documents 
to the committee, or not?
    Mr. Pekoske. I haven't seen the paper.
    Ms. Maloney. Well, this is the most--this is very annoying 
to me. So how are we going to handle this? We will make sure 
that the papers are on your desk tomorrow morning. Can you get 
back to the chairman with whether or not you are going to 
comply with the subpoena?
    Mr. Pekoske. The answer remains the same that I have just 
provided. I will follow the guidance of the Department of ----
    Ms. Maloney. Excuse me. There is no guidance from the 
Department of Homeland Security.
    Mr. Pekoske. I receive guidance ----
    Ms. Maloney. There is none. There is none from President 
Trump, there is nothing from the Executive. You can't say I am 
going to follow their guidance. They are not giving you any 
guidance. They probably don't even know anything about it. It 
is on your desk. Are you going to comply with the government 
subpoena, or not?
    Mr. Pekoske. I assure you, ma'am, that the department is 
aware of the issue. This is not my decision. This is a decision 
from my superiors in the Department of Homeland Security, and I 
will respect the ----
    Ms. Maloney. No. No. We didn't subpoena Homeland Security.
    Mr. Pekoske. Mm-hmm.
    Ms. Maloney. We subpoenaed TSA. We subpoenaed TSA. Now do 
we have to have another hearing, where you come back and say, 
``I talked to everybody, including the President of the United 
States, and they aren't doing Executive privilege, so now I am 
going to hand over the documents.''
    I mean this is talk around--this is why people hate 
bureaucracy, and why they hate government. We subpoenaed. Do 
you know how hard it is to get a subpoena from the chairman? It 
was agreed to in this committee. We have asked for the 
information, and you are denying the information for legitimate 
oversight, which is the job of this committee.
    Mr. Pekoske. My understanding is that we have provided 
every accommodation we can.
    Ms. Maloney. You have provided no accommodation.
    Mr. Pekoske. Yes, we did.
    Ms. Maloney. There is no way you can accommodate anything. 
You let us photograph something.
    Mr. Pekoske. That is right.
    Ms. Maloney. But that is not what we asked for. We want the 
documents.
    Mr. Pekoske. We have worked ----
    Ms. Maloney. You have not accommodated. We didn't ask for a 
photograph. We asked for the documents.
    Mr. Pekoske. Right.
    Ms. Maloney. And we have a subpoena, not for a photograph. 
We have a subpoena for the documents. And this is the national 
security of our country. And let me tell you, your whole office 
was created by this Congress.
    Mr. Pekoske. Mm-hmm.
    Ms. Maloney. And there was a whole effort not to create it, 
not to--or to contract it out, but we said if police are 
protecting us, TSA should have the same standing.
    Mr. Pekoske. Mm-hmm.
    Ms. Maloney. And it was a huge fight. And now the body that 
created you is now asking for some common-sense oversight, and 
you are denying us. And I find it outrageous and disrespectful, 
and you are running around the bush, saying a lot of 
gobbledygook, instead of coming forward with a--it is just a 
simple subpoena for some documents. In fact, I find your 
response so shocking, because I don't understand why you would 
not comply with it.
    And then I have another question here real quick. I 
understand that we may hold a vote at tomorrow's business 
meeting on this matter, and I plan to support measures to 
obtain these documents.
    And my final question is: Will TSA produce the documents 
that this committee subpoenaed more than a year ago relating to 
the claims of these whistleblowers, who were clearly wronged. 
It is the question I asked earlier. Are you going to produce 
them or not?
    Chairman Gowdy. The gentlelady is out of time, but you may 
answer her question.
    Ms. Maloney. I have been out of time for about 10 minutes. 
But I was trying to pin him down, and ----
    Chairman Gowdy. I had noticed it, also, but ----
    Ms. Maloney. I tried to get an answer from him, and I have 
not gotten an answer.
    Chairman Gowdy. That is why I had a very slow trigger 
finger.
    You may answer the question.
    Mr. Pekoske. Ma'am, I will do everything I can to 
accommodate the committee's request. We did provide screen 
side-by-sides, not a camera shot, but a screen side-by-side of 
a number of redacted documents.
    We have also agreed to provide paper copies in our 
headquarters for committee staff to go over the documents. And 
----
    Ms. Maloney. Respectfully, that is not what we asked for. 
We will be holding another vote on this ----
    Mr. Pekoske. Mm-hmm.
    Ms. Maloney.--tomorrow.
    Mr. Pekoske. Okay.
    Ms. Maloney. I yield back.
    Chairman Gowdy. The gentleman from New York--excuse me, 
North Carolina is recognized.
    Mr. Walker. We are all a little shook up.
    Chairman Gowdy. They are both states, and they are close 
by. North Carolina.
    Mr. Walker. Oh, well, thank you, Mr. Chairman, and once 
again, you have continued to prove your more than fairness in 
that chair, since you have taken over.
    Ms. Maloney. I am going to say it publicly. I am going to 
miss him. I really am. I am sorry that he is retiring and 
leaving. I think he has been a great member of Congress.
    Mr. Walker. Well, I think what she was saying without the 
microphone was that she was going to miss Trey Gowdy. So make 
sure that is on the record there. Okay? All right.
    (Laughter.)
    Mr. Walker. Administrator Pekoske, let's get back to the 
matter at hand. The committee did find numerous instances of 
senior TSA managers sexually harassing female employees, with 
varying degrees of punishment.
    So let me just start with a broad question. Do you believe 
that TSA has a sexual harassment problem?
    Mr. Pekoske. I believe we have employees that have violated 
our sexual harassment guidelines, and those employees should be 
held accountable.
    Mr. Walker. Well, I agree, but I think that answer to the 
question would, if there is an issue, that overall it would be 
yes. And obviously, with what, a little over a year that you 
have been there ----
    Mr. Pekoske. Yes.
    Mr. Walker.--just barely, and from what we see, 
administrator, we do believe you are making great strides to 
that. But to say in the past that TSA has had a sexual 
harassment problem I think is a fair assessment. Would you 
agree?
    Mr. Pekoske. I would say yes. That is an issue for us, and 
we are aggressively addressing it.
    Mr. Walker. Okay. This past November, TSA removed an 
assistant federal security director after he was found to have 
engaged in sexual harassment. Actually, made both sexist and 
racist remarks.
    His victim said he had been sexually harassing since 2010, 
and made inappropriate comments in the presence of other 
officials, including the airport's federal security director. 
Is it acceptable for a pattern of harassment to go and in check 
for--well, for years, in that case.
    Mr. Pekoske. Totally unacceptable.
    Mr. Walker. And do you think that whistleblower retaliation 
contributed to the victim not coming forward?
    Mr. Pekoske. Perhaps did, and that is really why I place 
such an emphasis on that. I want people to come forward. 
Otherwise, we will never address the problem.
    Mr. Walker. You understand that the security, and the 
safety, and the protection, if you are going to root out a 
problem, these folks have to have the assurance that from the 
top administrator, down, that the retaliation has to cease and 
desist immediately. Is that a fair statement?
    Mr. Pekoske. That is a fair statement, and I have done 
everything I can as the administrator to provide that assurance 
to our employees. We just need to continue to keep that message 
going, and our actions are going to speak louder than words.
    Mr. Walker. Will you answer my question? Because I was 
going to ask you, how do you detect and prevent sexual 
harassment at TSA, including allowing victims to come forward 
with their claim or claims. Are there specific things, or is it 
just a culture you are trying to change? What are you trying to 
do there?
    Mr. Pekoske. Yes, sir. Great question. At the end of the 
day it is the culture I am trying to change. That is what will 
address this issue most completely. And really, from my 
perspective, I don't think it should be just leader-based. In 
other words, when I leave this position, I want to leave a 
culture that was better than the culture I found.
    Mr. Walker. You may be familiar with the OIG report on the 
TSA's handling of a 2015 disciplinary matter involving a TSES 
employee.
    Mr. Pekoske. Yes.
    Mr. Walker. DHS allegedly reviewed the disciplinary process 
that allowed an assistant administrator to stay at the agency 
after initially being recommended for termination. 
Specifically, the IG, the inspector general found, ``TSA senior 
leaders deviated from standard policy and practice in a number 
of key respects, indicating that TSES employee received 
unusually favorable treatment in the resolution of his 
disciplinary matter.''
    Do you agree TSA's handling of these cases are acceptable?
    Mr. Pekoske. Handling of those cases? No. Not acceptable.
    Mr. Walker. Okay. And that is part of what you are saying 
here on record today, that you are committed to looking into 
this, and changing the culture as what we've seen as despicable 
behavior in the past.
    Mr. Pekoske. Yes, sir. Changing the culture, and then also 
putting written management directives in place, so that the 
process is memorialized and followed.
    Mr. Walker. It is very frustrating, to Ms. Maloney's point, 
of something that was created, and not too many years ago, by 
the House, by Congress itself, and to see this kind of rampant 
behavior. In this situation, we are talking about even after 
the lady came forward, the perpetrator sent her another 
sexually explicit email, I mean just really intimidating. So we 
want to make sure that this is a complete behavior change from 
here, going forward.
    Mr. Pekoske. Yes, sir. It is, and as I stated in my opening 
statement, the outcome of these cases would be different if 
they were before me.
    Mr. Walker. Why, and I want to get off my script a little 
bit in my last 40 seconds, I want to know to you personally, 
why is it important to you personally, outside of the job 
description, that as the administrator of this organization, 
that this area is important to you, as far as creating this 
kind of work environment?
    Mr. Pekoske. Well, because it is fundamentally wrong to 
treat people this way. And one of the core values of TSA is 
respect. We have to have respect for each other, and I want to 
create a workplace environment that people look forward to come 
to work every day, have high job satisfaction. I can't do it if 
people feel like they are being retaliated against. 
Additionally, it has a very negative effect on security, and my 
mission is to ensure the security of the transportation system.
    My focus is always going to be on our employees, and doing 
whatever I can to make our employees' job better for them, and 
their job satisfaction higher, and for them to look back at the 
senior leadership at TSA, and say, ``Okay. They get it, and 
they're supporting me, and they've added value to my ability to 
do the very important job I have.''
    Mr. Walker. Thank you for your remarks, administrator. With 
that, I yield back to the chairman. Thanks.
    Chairman Gowdy. The gentleman from Illinois is recognized.
    Mr. Krishnamoorthi. Thank you, Mr. Chair. Thank you, 
administrator for coming in today.
    First of all, I understand that TSA performs just a vital 
role for our national security. So thank you to you and the men 
and women of the TSA for doing what you do every day.
    And I also think that the vast majority of your personnel 
try to do their job commendably. However, I am concerned about 
some of the issues that have been raised by my colleagues, and 
I would like to bring up another issue.
    I represent the 8th congressional district of Illinois. 
This is the district that is bordering on the west and 
northwest borders of O'Hare International Airport. I happen to 
have the runways, but not the terminal in my district. However, 
what happens at the terminal affects a lot of my constituents.
    One of the things that I have heard repeatedly from my 
constituents, especially Muslim-American constituents, is a 
real concern about bias, and the way that they are screened. 
And it doesn't just include Muslim-Americans, it includes 
people of South Asian heritage.
    And I want to hear from you whether you have heard these 
concerns as well. What are you doing about this? Because this 
is very serious, and it seems to be protracted. I have heard 
this now for years. And I would like to hear, also, after you 
finish, about a specific incident that a lot of people are 
discussing. So go ahead.
    Mr. Pekoske. Sir, thanks for the question. Thanks for your 
comments about the workforce.
    I would tell you that yes, I have heard those comments 
before as well. And what we have done as an agency is actively 
engaged with community groups around the country to make sure 
that we understand their perspective, feedback that perspective 
to our workforce, and train our workforce on the--how they 
might come across at times, however unintentional, perhaps.
    Additionally, as I travel around the country visiting 
airports, where I do find communities of Muslim-Americans, for 
example, I make an effort to reach out to those communities so 
that I can personally engage with them to understand their 
perspective.
    We also, from TSA headquarters every year, have a 
multicultural day, where we bring in representatives from 
across the spectrum of the cultures of the United States, and 
we have a discussion with them. I was able to have a good 
conversation with folks that were in attendance just about 2 
months ago. Very good gathering. And the feedback that I got 
from the attendees there, because I spent some time to walk 
around and chat as much as I could individually with them, was 
they appreciated actually the progress that TSA has made over 
the course of time.
    And the final thing I will say, sir, because I don't want 
to consume too much time, is that we do provide very quick 
website access for any issues that any passenger might have 
with what they could expect at TSA, and importantly, to provide 
us feedback on their experience.
    Mr. Krishnamoorthi. I understand. I am glad that you are 
concerned about this, as I am, but I think that we need to see 
more action on this front, because I am hearing persistent 
complaints about this. And specifically, this was actually 
brought to my attention by my wife the other day, and it 
happened just recently, where a Muslim-American woman says that 
TSA basically strip searched her, and forced her to show her 
pad.
    ``In a complaint filed by the ACLU, 27-year-old Zainab 
Merchant said that TSA agents subjected her to a 2-year program 
of enhanced intrusive and humiliating security checks at 
airports around the United States simply for being a Muslim-
American.'' This appeared in the Washington Post, and then in 
other outlets as well.
    And this really bothers me a lot. This bothers me to no 
end, because, you know, we cannot in 2018 be discriminating 
against people based on their religion, or their ethnicity, or 
the color of their skin, or any other feature. And I hear from 
business people routinely that now they have to allot, I am 
talking about Muslim-American business people, who are 
traveling through O'Hare constantly, all over the place, that 
they have to allocate an additional two, three hours to make 
sure that they can get through TSA, even when they have TSA 
Precheck sometimes. And they have just come to accept it. And 
to me, that is not acceptable.
    So I need to have a commitment from you to work with my 
office to investigate these things, and to try to do something 
about it, because it is getting out of hand. And it is not just 
Muslim-Americans. It is people who are not--I mean they are 
just of a different heritage than the mainstream.
    Mr. Pekoske. Yes, sir. I agree with you 100 percent. What I 
would offer is that I would like to come out, and if you could, 
or your staff could arrange an engagement for me with those 
communities, I would be most happy to do that, because I want 
to hear their perspectives.
    Our policy is we absolutely do not discriminate. If 
somebody has to plan three hours routinely to get through the 
security checkpoint, there is an issue there, and I want to 
understand it.
    Mr. Krishnamoorthi. Yeah. I mean the worst part is some of 
them have just kind of resigned themselves to this.
    Mr. Pekoske. Yeah, they shouldn't.
    Mr. Krishnamoorthi. And they are not complaining anymore, 
because it is like, oh, well, you know ----
    Mr. Pekoske. Right.
    Mr. Krishnamoorthi.--that is the way it is. And I find that 
unacceptable. So I am glad that you are willing to work with 
us, and we will follow-up. And we have got to root this out. As 
I believe there is some bias here, we have got to root it out, 
because that is not good for our community, our country, or 
national security, at the end of the day.
    Mr. Pekoske. Yes, sir, and I appreciate your help.
    Mr. Krishnamoorthi. Thank you.
    Mr. Pekoske. Thank you.
    Chairman Gowdy. Admiral, I am last, so thank you for your 
patience. I will get the bad part out of the way first.
    Yesterday, DHS managed to do something that really I wasn't 
sure even God could do in this political environment, which is 
unite republicans and democrats. So proportionality is 
important. Protecting witnesses is important. You know, each of 
the members on both sides, we have friends on Appropriations on 
both sides of the aisle, and I understand privilege probably, I 
guess, maybe as well as anybody in the House. But we are not 
going to go away, so to the extent that you could deliver that 
message back.
    And I realize that you are not making the decision. 
Somebody else is. But Congress becomes very apolitical and 
bipartisan when documents we believe we are entitled to are 
withheld for a long period of time with a dearth of legal 
justification. So if you can help us communicate that.
    I realize you are not the decisionmaker. I am not going to 
beat you up over it, but if you can help us deliver that 
message. I don't know who will sitting here. I know it will not 
be me, but somebody will be sitting here in January, and I 
don't think the issue is going to go away.
    So with that, a couple of things I want to ask you about. I 
want to ask you about equipment at your security checkpoints, 
what you need. Do you have it? Are you excited about what is 
coming? And given the setting we are in now, there may be 
things you can discuss in another setting, but what could you 
tell us from an equipment standpoint that would help you?
    Mr. Pekoske. Yes, Mr. Chairman. Thanks for the question. 
And we are in the very beginning stages of a massive technology 
refresh at our security checkpoints. And it is basically the 
result of the covert testing results that we saw, that 
indicated that the equipment that we had was not up to the task 
that was in front of us.
    And so we have started with replacing the X-ray machines at 
our security checkpoints for carry-on bags. And the technology 
is the CT, or CAT scan, technology, which is not just a little 
bit better, but a lot better than the current technology we 
have in place.
    And additionally, and very important to me, is that it 
provides an interface for our employees that is, again, much, 
much better than what we have in place. Rather than a two-
dimensional image, and trying to discern what is in somebody's 
carry-on bags in 2D, the CT machines give you 3-dimensional 
images, which will mean, for us, it is better security, and for 
passengers, it is going to be much more convenient for them. 
Because already, where those CT machines are deployed, 
passengers don't have to take laptops out of their carry-on 
bags. Ultimately, they won't have to take out anything from 
their carry-on bags, because we will be able to see that.
    The next thing that we are looking at at our security 
checkpoints is a way to get better at identity for verification 
and risk management off of passengers that come through the 
checkpoint. We are trying very hard to ensure that, you know, 
to the extent we have information that we can use to identify 
risk by passenger, for example, the risk in a Precheck-lane 
passenger, is, by definition, less, because a Precheck 
passenger has given more information to the government, as 
provided by a metric to the government. And, therefore, we 
recognize that we have more knowledge of that person's 
background, and provide them a different level of screening 
than a passenger who didn't provide that information.
    And so this new technology will allow us to, one, better 
validate that the driver's license you provide, or the passport 
you provide is, in fact, authentic. And so rather than the 
officer looking down and just examining visually the 
credential, the machine will verify the authenticity of the 
credential.
    Additionally, the machines are connected to our secure 
flight database, which basically allows us to see what the risk 
of that passenger is, Precheck, standard lane, or perhaps a 
selectee, and also gives us the flight information for that 
passenger.
    So for passengers, once this technology is fully deployed, 
they won't have to display a boarding pass, because we do have 
cases nearly every single month where we have a fraudulent I.D. 
or fraudulent boarding pass presented at the checkpoint.
    And then finally, from a technology perspective, sir, we 
are working to improve the on-body alarm system that we have, 
where you walk through and you put your hands over your head. 
There is updates to that technology, and in different 
technologies that we are examining.
    So my hope is that over the next 5 years, passengers will 
see an entirely different suite of technology, and importantly, 
our adversaries will recognize that our detectability is 
continuing to improve.
    The one thing that I will add is that we have deployed more 
and more canine teams at our security checkpoints. Canines are 
very effective at detection, very effective deterrents value as 
well. And thanks to the support of the Congress, both the House 
and the Senate, again, a very bipartisan issue is a stronger 
support for our canine programs in terms of numbers.
    And so I expect we have both House and Senate marks in our 
fiscal '19 appropriation bill that increases the number of 
teams by 50, which is a very good and significant add, and I 
appreciate that support.
    Chairman Gowdy. I appreciate you bringing up canines. I was 
going to ask you about them in honor of our former chairman, 
Jason Chaffetz, who never missed an opportunity to advocate for 
them. So in honor of him, thank you for addressing that.
    Your term of service, like the FBI director's there for 10 
years. I guess Mick Mulvaney's an at-will employee. What are 
the terms of your service? Do you have a time period that you 
are nominated and confirmed to serve?
    Mr. Pekoske. No, sir. I serve with the pleasure of the 
president, but there is legislation that is before the floor of 
the House, I believe this afternoon, that includes a provision 
to make the administrator of TSA a 5-year term. And it also 
makes that retroactive to my start of office.
    I 100 percent support that. As we have seen, and we have 
talked about over the course of this afternoon, we do need to 
continue to improve the culture in TSA. We do need to make 
continued sustained improvements in the agency. I think it is a 
terrific agency, as it sits right now. It can be much better. 
And having a longer period of time to be able to put those 
changes in place I think is very valuable.
    I am the seventh confirmed administrator for TSA, but over 
the course of time, and in the course of your investigation, 
you saw a number of acting officials that were in place. And 
this is not a criticism of those acting officials, it is just 
when you come in, and you are only there for a short period of 
time, and not necessarily familiar with TSA, it does make the 
decision process a little bit more challenging.
    So I think it is very important to provide the TSA 
administrator a 5-year term, and I 100 percent support that. 
And I hope you will vote in the affirmative on that.
    Chairman Gowdy. My friend from Maryland made reference to 
air marshals in his opening statement. What update can you give 
us on the advocacy of that program? From time to time I bump 
into them in travels. Personally speaking, I find it very 
reassuring to know that they are on airplanes, but I am not an 
expert on whether or not that is where the trends are going in 
the future. What is your position on that, and how are they 
being used now?
    Mr. Pekoske. Yes, sir. Thanks for that question. I think 
the Federal Air Marshal Service is an outstanding component of 
TSA. They provide all of our in-flight security, and also 
provide landside security in the form of the VIPR teams, the 
Visible Intermodal Protection Response teams that you may see 
at a transportation hub like Washington Metro, for example, or 
Amtrak, supporting state, and local, and industry enforcement 
mechanisms.
    But with respect to the Federal Air Marshal Service, in-
flight security is still very important. And one of the 
strengths of the TSA system are the multiple elements of 
security we have. And so when a passenger starts out, and they 
buy a ticket, our security process starts, in terms of our 
vetting of that passenger. And then there are several layers, 
including canines, that a passenger encounters in the course of 
proceeding to the gate of an aircraft.
    But the air marshals provide our in-flight security. And 
even though we have had advancements in reinforced cockpit 
doors, and we do have a very effective, I think, and very 
beneficial federal flight deck officer program, where first 
officers and pilots volunteer their time to be trained by TSA 
to handle weapons to protect a cockpit, and are, in fact, 
deputized by us when they are onboard an aircraft, even though 
we have those two mitigations in place, the risk in flight is 
still there.
    Of course, I look at the intelligence every single day, and 
that indicates to me that we still very much need to have a 
Federal Air Marshal Service in place. And so what I have done 
since I've been the administrator is really look at how we 
deploy our federal air marshals, and have published a new 
concept of operations that deploys federal air marshals 
primarily on flights where we think the most risk is 
represented by the people on board those flights.
    And in my view, that is a better risk mitigation process, 
and also allows us to use all the tools that have been 
developed by TSA over time to ensure that we can assess risk by 
passenger.
    And I am really very happy with the performance of the 
Federal Air Marshal Service. I will tell you, sir, that 
sometimes people think that being a federal air marshal is an 
easier job. It is not. It is a very difficult job to do. And 
air marshals have significant challenges. And one of the things 
that I have done in this regard is to look at the fatigue of 
just flying all day long, and particularly when you are on a 
domestic flight, where you are doing maybe three flights a day, 
where you are going up and down, that can be very fatiguing if 
you do it three, four, five days in a row.
    And so we backed off some of our pace to ensure that we 
address the fatigue issues that many air marshals highlighted 
for me when I either talk to them just before or just after a 
flight, or talk to them at their field offices.
    But, you know, bottom line for me is it is a very, very 
important layer of TSA security. I really appreciate the 
professionalism of our Federal Air Marshal Service, and I am 
doing everything I can to ensure we take a more risk-based 
approach to how we deploy our resources.
    Chairman Gowdy. Well, Admiral, I am out of time. We are all 
kind of creatures of our own personal experience, and I don't 
pretend that it is anybody else's, but I fly a lot, and I don't 
wear a member pin. So I guess I will maybe possibly understand 
my colleagues to think that that impacts how TSA employees 
treat them.
    I don't wear one. So unless they watch really old episodes 
of Forensic Files, my guess is they have no idea who I am, and 
I have never been treated anything other than professionally, 
all the airports I have been at, particularly, obviously, 
Charlotte, and Greenville, and DCA, the most. But never had a 
negative experience in 8 years that I have been flying on an 
almost weekly basis. So that doesn't mean other people haven't. 
I am sure they have, but they have been great.
    Appreciate all the service you have given our country, and 
all the different ways that you have done it. And I am sure 
that you will agree with me, as you try to kind of change the 
culture, and take the agency in a different direction, 
employees have got to have confidence that there is just one 
set of rules. It is not two different sets of rules, dependent 
on whether or not you know the right people.
    And that report was hard for me to read. I am glad the 
folks did it. I read every word of it. That is not what I think 
of when I think of folks in leadership positions in public 
service. So all the best to you as you try to sort that out, 
and appreciate your service, and thank you for being here 
today.
    Mr. Pekoske. Thanks, Mr. Chairman. Appreciate it.
    Chairman Gowdy. With that, we are adjourned.
    [Whereupon, at 3:48 p.m., the committee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
               
               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]               

                                 <all>
</pre></body></html>
